TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Most Tax Returns Prepared by a Limited
                  Sample of Unenrolled Preparers Contained
                             Significant Errors



                                       September 3, 2008

                              Reference Number: 2008-40-171




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 3, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Most Tax Returns Prepared by a Limited Sample
                              of Unenrolled Preparers Contained Significant Errors
                              (Audit #200840009)

 This report presents the results of our review to determine whether taxpayers receive accurate
 preparation of their income tax returns when using unenrolled paid preparers. This audit was
 conducted as part of our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Although taxpayers are ultimately responsible for the information reported on their tax returns,
 millions of taxpayers rely on preparers to prepare correct returns. Currently, there are no
 national standards that preparers are required to satisfy before selling tax preparation services to
 the public. Because more than one-half of all taxpayers use preparers to file their tax returns,
 preparers have a significant effect on taxpayer compliance. In a limited sample of unenrolled
 preparers, we found that most made significant errors when preparing tax returns.

 Synopsis
 In Calendar Year 2007, the Internal Revenue Service (IRS) processed approximately 83 million
 individual Federal income tax returns prepared by paid preparers. This is up more than 2 percent
 from the nearly 81 million tax returns prepared by paid preparers that the IRS processed in
 Calendar Year 2006. Anyone–regardless of training, experience, skill, or knowledge–is allowed
 to prepare Federal income tax returns for others for a fee.
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



In February and March 2008, Treasury Inspector General for Tax Administration auditors posed
as taxpayers in a large metropolitan area and paid to have 28 tax returns prepared at
12 commercial chain and 16 small, independently owned tax return preparation offices. Auditors
paid commercial chains approximately $2,800, averaging $234 per tax return, and independently
owned offices approximately $2,100, averaging $132 per tax return.
The preparers were unlicensed and unenrolled. That is, they were not practitioners (attorneys,
certified public accountants, enrolled agents, or enrolled actuaries). Preparers often made
substantial errors when completing tax returns and correctly prepared only 11 (39 percent) of the
28 tax returns (i.e., the tax returns showed the correct amount of taxes owed or refunds due).
However, 17 tax returns (61 percent) were prepared incorrectly.
    •   11 (65 percent) of the 17 contained mistakes and omissions we considered to have been
        caused by human error and/or misinterpretation of the tax laws.
    •   6 (35 percent) of the 17 contained misstatements and omissions we considered to have
        been willful or reckless.
If these incorrect tax returns had been filed, the net effect to the Federal Government would have
been $12,828 in understated taxes (this is the net effect–there were instances in which tax
liabilities and tax refunds were both overstated and understated). We discussed these issues with
IRS officials, who stated that had these problems been discovered on real tax returns, the
preparers could have been subject to penalties for such things as willful or reckless disregard of
tax rules. We have referred matters that we encountered to the IRS, so that any appropriate
followup actions can be taken.
The Internal Revenue Code includes requirements1 that all preparers be diligent in determining
taxpayer eligibility for the Earned Income Tax Credit, sign the tax return, furnish their
identification number on the tax return,2 and not improperly or recklessly disclose tax return
information. However, none of the seven preparers required to exercise due diligence when
determining whether auditors were eligible to receive the Earned Income Tax Credit did so. In
addition, two preparers did not furnish the required identification numbers on the completed tax
returns.
The IRS does not have one list or database that collects information on preparers such as the
preparer’s name, associated identifying numbers, or whether the preparer is a practitioner or
unenrolled preparer. The IRS acknowledges that it does not know how many paid preparers
exist and cannot determine the full extent of noncompliance and incompetence among



1
 See Appendix IV for a list of Internal Revenue Code penalties applicable to paid preparers.
2
 Paid preparers must provide their Social Security Number, Practitioner Tax Identification Number, and/or
Employer Identification Number on tax returns.
                                                                                                            2
                           Most Tax Returns Prepared by a Limited Sample of
                           Unenrolled Preparers Contained Significant Errors



practitioners. This hinders the IRS’ efforts to expand its outreach and education initiatives and to
identify potentially problematic preparers and all the tax returns they prepared.
In Fiscal Year 2007, the IRS, including the National Taxpayer Advocate and the Director, Office
of Professional Responsibility, participated in a Return Preparer Summit, which was claimed to
be a first step toward creating an agency-wide preparer strategy. The Summit’s goal was to have
an organized, agency-wide strategy that would assist in making the most of IRS resources by
focusing compliance and outreach efforts with tax professionals where it is most needed.
Pursuing abusive preparers is part of the IRS’ strategy to reduce the tax gap, which researchers
estimate to be $290 billion based on 2001 data.3 In February 2007 testimony before Congress,
the IRS Commissioner stated that 68 percent of the tax gap is attributed to underreported taxes
for individuals. Eleven (65 percent) of the 17 incorrect tax returns prepared for our auditors fell
into this category.
Taxpayers are ultimately responsible for the information reported on their tax returns. However,
taxpayers rely on preparers to prepare correct returns. In Fiscal Year 2007, legislation was
introduced in Congress to regulate paid preparers.4 A unique identification number would enable
the IRS to use its current databases to identify and evaluate preparers’ compliance. Being able to
identify all preparers would allow the IRS to better pursue abusive or incompetent tax preparers
in its stepped-up campaign against tax fraud and other forms of noncompliance.

Recommendation
We recommended that the Commissioner, Small Business/Self-Employed Division, develop and
require a single identification number to control and monitor all paid preparers.

Response
IRS management agreed to study this issue. The Director, Examination, Small
Business/Self-Employed Division, will commission a cross-functional team to study the
feasibility and methodology associated with requiring a single identification number to control
and monitor all paid preparers. Management will evaluate the results of the study to consider if
it is feasible to implement. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or

3
  IRS, U.S. Department of the Treasury, Reducing the Federal Tax Gap: A Report on Improving Voluntary
Compliance (Washington, D.C.: August 2, 2007); The 2007 Taxpayer Assistance Blueprint Phase 2
(Washington, D.C.: 2007).
4
  S. 1219, Taxpayer Protection and Assistance Act of 2007, 110th Congress, 1st Session (2007).
                                                                                                        3
                      Most Tax Returns Prepared by a Limited Sample of
                      Unenrolled Preparers Contained Significant Errors



Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                         4
                                 Most Tax Returns Prepared by a Limited Sample of
                                 Unenrolled Preparers Contained Significant Errors




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Preparers Often Made Substantial Errors When Completing
          Tax Returns...................................................................................................Page 5
          Improved Data Are Needed to Enable the Internal Revenue Service
          to Control and Monitor Paid Preparers .........................................................Page 11
                    Recommendation 1:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Report Distribution List.........................................................Page 18
          Appendix III – Comparison of Taxpayers Who Used a Preparer to
          Taxpayers Who Did Not Use a Preparer for Calendar Year 2008................Page 19
          Appendix IV – Internal Revenue Code Preparer Penalties...........................Page 21
          Appendix V – Explanations of Tax Law Topics ..........................................Page 22
          Appendix VI – Accuracy Results of 28 Anonymous Visits .........................Page 24
          Appendix VII – Management’s Response to the Draft Report.....................Page 26
      Most Tax Returns Prepared by a Limited Sample of
      Unenrolled Preparers Contained Significant Errors




               Abbreviations

IRS      Internal Revenue Service
                               Most Tax Returns Prepared by a Limited Sample of
                               Unenrolled Preparers Contained Significant Errors




                                               Background

Every year, more than one-half of all taxpayers pay someone else to prepare their income tax
returns. During Calendar Year 2007, the Internal Revenue Service (IRS) processed
approximately 83 million individual Federal income tax returns prepared by paid preparers. This
is up more than 2 percent from the nearly 81 million processed in Calendar Year 2006.
Currently, there are no national standards that a preparer is required to satisfy before selling
                                                   tax preparation services to the public.
 Paid preparers can be self-employed or work       Anyone–regardless of training, experience,
 for accounting firms, large tax preparation       skill, or knowledge–is allowed to prepare
 services, or law firms. They include the          Federal income tax returns for others for a fee.
following:
•      Licensed professionals, such as attorneys              State regulation of paid preparers focuses on
       and certified public accountants. These                licensed practitioners, and, with the exception
       licensed professionals are regulated by the            of California and Oregon, most States allow
       State licensing authority and related                  anyone to be a paid preparer regardless of
       associations such as the American Bar
       Association and the American Institute of
                                                              education, training, or licensure. Unenrolled
       Certified Public Accountants.                          paid preparers are not required to demonstrate
                                                              a minimum competency in tax law, nor are
•      Enrolled agents. These professionals pass              they required to satisfy any continuing
       an IRS examination or present evidence of              education requirements in order to prepare
       qualifying experience as a former IRS                  Federal tax returns.
       employee and have been issued an
       enrollment card. Enrolled agents are the               Paid preparers authorized to represent
       only taxpayer representatives who receive              taxpayers in matters before the IRS are called
       their right to practice from the Federal
       Government.
                                                              practitioners and include attorneys, certified
                                                              public accountants, enrolled agents, and
•      Unenrolled or unlicensed preparers.                    enrolled actuaries. Practitioners can legally
       These individuals range from those who                 represent taxpayers. Therefore, they can serve
       might receive extensive training to those              as a conduit to the IRS on account-related
       with little or no training. Currently, only two        matters. Examples include preparing and filing
       States, California and Oregon, have
       requirements for unenrolled paid                       documents, communicating with the IRS, and
       preparers. In these States, unenrolled paid            representing taxpayers at meetings.
       preparers must register with State
       agencies and meet continuing education                 All paid preparers are subject to Internal
       requirements.                                          Revenue Code penalties–both civil and
                                                              criminal.1 For example, civil penalties apply if
                                                              paid preparers do not sign the tax returns they

1
    See Appendix IV for a list of Internal Revenue Code penalties applicable to paid preparers.
                                                                                                       Page 1
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



prepare, do not provide the taxpayers with copies of the tax returns, or deliberately understate a
taxpayer’s tax liability. Criminal penalties apply when a paid preparer willfully prepares or
makes a false statement regarding a false or fraudulent tax return or knowingly provides
fraudulent tax returns to the IRS.
However, other regulations depend on whether the preparer is an attorney, a certified public
Accountant, an enrolled agent, or an unenrolled preparer. For example:
    • Attorneys, certified public accountants, and enrolled agents are regulated by the Internal
      Revenue Code, Treasury Department Circular 230,2 and the individual States in which they
      practice. These authorities have established requirements, penalties, and disciplinary
      actions for noncompliance and/or issue licenses and require continuing education to
      maintain them.
    • Unenrolled preparers are regulated by the Internal Revenue Code. However, neither
      Circular 230 nor individual State requirements, with the exception of the States of
      California and Oregon,3 apply to them.
The IRS Office of Professional Responsibility regulates attorneys, certified public accountants,
and enrolled agents who practice before the IRS. Practice is defined broadly in Treasury
Department Circular 230 as comprehending all matters connected with a presentation to the IRS
relating to a taxpayer’s rights, privileges, or liabilities under laws or regulations administered by
the IRS.
The IRS has additional regulations for any paid preparers who are authorized to file tax returns
electronically. Applicants to the Electronic Filing Program must pass certain IRS checks,
including background and credit history checks. Participants are also monitored.

Auditors posed as taxpayers to have tax returns prepared
In February and March 2008, Treasury Inspector General for Tax Administration auditors posed
as taxpayers in a large metropolitan area and paid to have 28 tax returns prepared at
12 commercial chain and 16 small, independently owned tax return preparation offices. The
preparers were unlicensed and unenrolled (i.e., they were not attorneys, certified public
accountants, enrolled agents, or actuaries).

2
  Regulations Governing the Practice of Attorneys, Certified Public Accountants, Enrolled Agents, Enrolled
Actuaries, Enrolled Retirement Plan Agents, and Appraisers before the Internal Revenue Service (Treasury
Department Circular No. 230, (revised 4-2008)).
3
  California requires that paid preparers pass a 60-hour approved course and obtain a tax preparer bond to become
registered. California also requires 20 hours of continuing education annually. Oregon requires that tax preparers
be at least 18 years old, have a high school degree or equivalent, complete 80 hours of income tax law education,
and pass a tax preparer examination. Oregon also requires 30 hours of continuing education annually. While
Oregon requires enrolled agents to register, enrolled agents must meet far fewer registration requirements than
unenrolled preparers must meet.
                                                                                                            Page 2
                              Most Tax Returns Prepared by a Limited Sample of
                              Unenrolled Preparers Contained Significant Errors



Auditors developed 5 scenarios with income ranging from $16,000 to $85,000. The filing
statuses were Single, Married Filing Jointly, or Head of Household. The issues included the
following tax law topics:4
         Additional Child Tax Credit                Education Credits
         Business Income and Expenses               Filing Status
         Capital Gains                              Income from Wages
         Charitable Contributions                   Individual Retirement Account Distribution
         Child and Dependent Care Credit            Interest Income
         Child Tax Credit                           Mortgage Interest Paid
         Dependency Exemptions                      Saver’s Credit5
         Earned Income Tax Credit                   Self-Employment Tax and Deduction
The tax returns we had prepared by unenrolled preparers were not filed. Auditors explained that
they would file the tax returns themselves. The five scenarios were not considered complex, and
the tax topics were specific, straightforward, and not dependent on interpretation.
Scenario #1: Single divorced parent with one child under age 17 who lived with the taxpayer the
             entire year. The taxpayer is a wage earner, has a small amount of interest income,
             receives child support, and pays child care expenses for the child to enable him or
             her to work.
Scenario #2: Single parent with two children under age 17. The taxpayer’s children lived with
             the taxpayer during school vacations (a total of 4 months). The taxpayer is a wage
             earner with a part-time job, attends college part time, and lives in a relative’s
             home.
Scenario #3: Single parent who lives with a friend. The taxpayer and friend each have one child
             under age 17 who lived with them the entire year. The taxpayer is a wage earner,
             attends college part time, and took an early distribution from an Individual
             Retirement Account.
Scenario #4: Single parent with one child under age 17 who lived with the taxpayer the entire
             year. The taxpayer is a wage earner, owns a home, and made charitable
             contributions. The taxpayer took an early distribution from an Individual
             Retirement Account.
Scenario #5: Married parents with two children, one child under age 17 and one child over
             age 18 who is in college. One spouse is a wage earner, and one is self-employed.
             The taxpayers had capital gains from the sale of stock.


4
    See Appendix V for definitions of each of the tax law topics.
5
    The Credit was formerly known as the Retirement Savings Contributions Credit.
                                                                                                 Page 3
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



Scenarios #1 and #2 were used in the Treasury Inspector General for Tax Administration’s filing
season review of the IRS’ Volunteer Program and required preparers to determine the taxpayer’s
eligibility for the Earned Income Tax Credit.6
This review was performed in a large metropolitan city7 and discussions were held with IRS
officials in Washington, D.C., during the period January through May 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. This
audit was limited to 1) analyzing data from various IRS computer systems to identify paid
preparers and selected characteristics of taxpayers who pay them to prepare their tax returns,
2) reviewing laws and regulations that apply to preparers, and 3) having tax returns prepared by
preparers. Because we selected a non-representative sample of preparers from one large
metropolitan city for this review, it is not possible to generalize the results of our work and draw
conclusions about all preparers. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I.




6
  Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to Ensure Consistent
Application of Procedures and Processes (draft report issued July 21, 2008).
7
  The name of the city is not disclosed to support the anonymity of the auditors and the paid preparers visited.
                                                                                                           Page 4
                                Most Tax Returns Prepared by a Limited Sample of
                                Unenrolled Preparers Contained Significant Errors




                                          Results of Review

Preparers Often Made Substantial Errors When Completing Tax
Returns
Taxpayers who use unenrolled preparers might not always receive accurately prepared tax
returns. Most tax returns prepared for auditors during this review contained errors that affected
both the expected tax refunds and liabilities. In addition, some actions taken by preparers were
considered willful or reckless.
During this audit, preparers correctly prepared 11 (39 percent) of the 28 tax returns (i.e., the tax
returns showed the correct amount of taxes owed or refunds
due). However, 17 tax returns (61 percent) were prepared
incorrectly.                                                     Preparers correctly prepared
                                                                             11 of 28 tax returns.
Of the 17 tax returns prepared incorrectly, 11 (65 percent)           However, 17 tax returns
contained mistakes and omissions we considered to have              (61 percent) were prepared
                                                                            incorrectly.
been caused by human error and/or misinterpretation of the
tax laws. However, 6 (35 percent) of the 17 returns
contained misstatements and omissions we considered to
have been willful or reckless. If these tax returns had been filed, the net effect to the Federal
Government would have been $12,828 in understated taxes (this is the net effect–there were
instances in which tax liabilities and tax refunds were both overstated and understated).
Although 5 (29 percent) of the 17 tax returns prepared incorrectly had small errors (less than
$200), the other 12 (71 percent) had errors that ranged from approximately $340 to almost
$6,000.
Preparers did not prepare any of the business income and expense tax returns correctly. All
preparers used commercial tax preparation software to prepare the tax returns. Figure 1 provides
the breakdown of the effect that the 11 incorrectly prepared tax returns, containing mistakes and
omissions, would have had on tax administration had they been filed.8




8
    Appendix VI provides a detailed list of the accuracy of all 28 visits.

                                                                                                     Page 5
                         Most Tax Returns Prepared by a Limited Sample of
                         Unenrolled Preparers Contained Significant Errors



                       Figure 1: Errors on 11 Tax Returns Caused
                               by Mistakes and Omissions
                                                       # of Tax
                    Condition                          Returns             Effect
                    Tax Liability Understated              5               -$9,860
                    Refund Overstated                      1                     -164
                    Total Understated Tax                                 -$10,024
                    Additional Tax Owed                    5                 6,843
                    Total Effect                          11               -$3,181
                   Source: Tax returns prepared for our auditors by preparers.

Figure 2 provides the breakdown of the effect that the six incorrectly prepared tax returns
considered to have been prepared with willful or reckless conduct would have had on tax
administration had they been filed.
            Figure 2: Six Tax Returns Considered to Have Been Prepared
                          With Willful or Reckless Conduct
                                                       # of Tax
                    Condition                          Returns            Effect
                    Tax Liability Understated              1               -$4,160
                    Refund Overstated                      4                 -6,442
                    Total Understated Tax                                 -$10,602
                    Additional Tax Owed                    1                     955
                    Total Effect                           6               -$9,647
                   Source: Tax returns prepared for our auditors by preparers.

All preparers correctly reported income from savings account interest, wages, and
self-employment. However, none of them correctly calculated the expenses relating to
self-employment income. Figure 3 shows the number of tax topics per tax return and how often
the tax law was applied correctly.




                                                                                              Page 6
                                Most Tax Returns Prepared by a Limited Sample of
                                Unenrolled Preparers Contained Significant Errors



                                       Figure 3: Results by Tax Law Topic

                                                                                                  Percentage
                             Topic                             Correct          Incorrect          Correct
      Additional Child Tax Credit (28 tax returns)                 24               4                 86%
      Business Income (6 tax returns)                              6                0                 100%
      Business Expenses (6 tax returns)                            0                6                 0%
      Capital Gains (6 tax returns)                                5                1                 83%
      Child and Dependent Care Credit (12 tax returns)             10               2                 83%
      Child Tax Credit (28 tax returns)                            22               6                 79%
      Dependency Exemptions (28 tax returns)                       26               2                 93%
      Earned Income Tax Credit (12 tax returns)                    10               2                 83%
      Education Credits (12 tax returns)                           6                6                 50%
      Filing Status (28 tax returns)                               27               1                 96%
      Income – Wages (28 tax returns)                              28               0                 100%
      Individual Retirement Account Distribution
      (17 tax returns)                                             15               2                 88%
      Interest Income (28 tax returns)                             28               0                 100%
                                           9
      Itemized Deductions (5 tax returns)                          3                2                 60%
      Saver’s Credit (23 tax returns)                              18               5                 78%
      Self-Employment Tax and Deduction
      (12 tax returns)                                             1                11                8%
     Source: Tax returns prepared for our auditors by preparers.

The following text provides examples of mistakes and omissions made by paid preparers during
our anonymous visits.
Earned Income Tax Credit and Dependency Exemptions
In one instance, an auditor provided the preparer with a Distributions From Pensions, Annuities,
Retirement or Profit Sharing Plans, IRAs,10 Insurance Contracts, etc. (Form 1099-R) that showed
a large early distribution from an Individual Retirement Account. The preparer failed to include
the distribution as income. Because the distribution was not included as income, the auditor was
qualified for the Earned Income Tax Credit. The preparer also did not allow a dependency
exemption and miscalculated the Child Tax Credit. This error qualified the auditor for the
Additional Child Tax Credit. The net effect was a refund of more than $4,600 when the tax
return should have resulted in a balance due of approximately $500.

9
    Itemized Deductions tax law topics include mortgage interest paid and charitable contributions.
10
     IRA – Individual Retirement Account.
                                                                                                             Page 7
                        Most Tax Returns Prepared by a Limited Sample of
                        Unenrolled Preparers Contained Significant Errors



Education Credits
For 6 of the 12 tax returns with the Education Credits, auditors received the incorrect amount for
the Education Credits. Preparers were not always sure how to treat Education Credits. In some
instances, our auditors received a deduction from income for education expenses, and sometimes
they received a credit that decreased their taxes. In every situation, the Education Credits should
have been a reduction in taxes, not income.
Saver’s Credit
Auditors on two separate occasions failed to receive the Saver’s Credit to which they were
entitled. The preparers did not prepare the Credit for Qualified Retirement Savings
Contributions (Form 8880) to calculate the Credit. The net effect was a reduced refund of more
than $100 for both tax returns.
Business Income, Expenses, and Self-Employment Tax
Auditors did not receive correct tax returns for any of the six tax returns with business expenses.
Preparers either duplicated or omitted allowable business expenses that resulted in the
understatement of self-employment tax (three tax returns) and overstatement of income tax
(three tax returns). For all six returns, there were also other tax law errors, including not
allowing depreciation for equipment, failing to use the selling price from the sale of stock to
calculate capital gains, and not allowing the Saver’s Credit. The net effect on tax administration
ranged from understating auditors’ tax liabilities by more than $600 to overstating them by
approximately $5,000.

Some preparers’ actions could be considered willful or reckless
Six preparers acted willfully or recklessly during the preparation of each of the five scenarios.
These preparers added or increased deductions without the auditors’ permission and in some
situations after the auditors had questioned whether they were entitled to receive the deductions.
Although our auditors knew when preparers were behaving recklessly, they were careful to
remain independent in order to document their experiences. These efforts also ensured that
auditors did not compromise their anonymity during the visits. Examples of paid preparers’
conduct exhibited during anonymous visits included:
   •   An auditor explained to the preparer that he or she had babysitter expenses for a child.
       The preparer asked if the auditor paid the babysitter in cash, and the auditor replied yes.
       The preparer then increased the child care expenses. In addition, the preparer instructed
       the auditor to tell the babysitter to file a Profit or Loss From Business (Schedule C) and
       deduct expenses for operating a home business equal to the increased child care expenses.
       The preparer also offered to change the expenses back to the original amount if the
       babysitter did not agree to change his or her records. The preparer’s actions increased the
       auditor’s refund by more than $325.

                                                                                             Page 8
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



     •   An auditor completed an information worksheet showing children living in the home less
         than one-half of the year. The preparer stated that he or she was going to show on the tax
         return that the children lived in the home with the auditor for 12 months so the auditor
         could receive all that he or she was entitled to. The decision erroneously changed the
         auditor’s filing status from Single to Head of Household, increased the dependency
         exemptions, and qualified the auditor for the Child Tax Credit and the Earned Income
         Tax Credit. The net effect on tax administration from the preparer’s actions increased the
         refund from $100 to approximately $6,000.
     •   An auditor received a deduction for charitable contributions to which he or she was not
         entitled. The preparer asked the auditor if he or she had charitable contributions and the
         auditor replied that there were no contributions. The preparer added the contributions
         and did not inform the auditor that they were being added. The preparer also added a
         deduction for property tax for a car without the auditor’s assertion or documentation.
         The effect was a refund of more than $200, when the refund should have been less than
         $140.
According to IRS records, as of April 19, 2008, these
6 preparers had prepared 973 tax returns during the
2008 Filing Season. One of the 6 preparers prepared                       The 6 preparers whose actions
733 (75 percent) of the 973 tax returns. We discussed                       were considered willful or
these issues with IRS officials. They stated that if these                  reckless prepared almost
                                                                           1,000 tax returns during the
problems had been discovered on real tax returns, the                          2008 Filing Season.
preparers could have been subject to penalties for such
things as willful or reckless disregard of tax rules. We
have referred matters that we encountered to the IRS so
that any appropriate followup actions can be taken.
Preparers used several methods to obtain information to prepare tax returns
Generally, most of the 28 preparers asked probing questions before and while preparing the tax
returns. When probing questions were not asked, preparers tended to make assumptions or rely
upon the tax return preparation software to determine eligibility determinations. For example,
during one visit, a preparer did not ask any probing questions but prepared a correct tax return
using the commercial software. Observations from the 28 visits showed:
     •   For 16 (57 percent) of the 28 visits, the preparers asked the auditors to complete an
         information worksheet11 to prepare the tax returns. However, only 5 (31 percent) of the



11
   An information worksheet is a document used to gather information such as the names, Social Security Numbers,
and length of time children who could be claimed as dependents lived in the home. Also, the worksheet asked the
client to circle all sources of income received or earned.
                                                                                                         Page 9
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



         16 instances when information worksheets were completed resulted in correctly prepared
         tax returns.
     •   For 11 (39 percent) of the 28 visits, the preparers asked for identification such as a
         driver’s license or the auditors’ and dependents’ Social Security Administration cards.

Some preparers’ actions did not comply with Internal Revenue Code
requirements
Internal Revenue Code requirements12 include that all preparers be diligent in determining
taxpayer eligibility for the Earned Income Tax Credit, sign the tax return, furnish their
identification number on the tax return,13 and not improperly or recklessly disclose tax return
information. The penalties for violation of the Code requirements range from $50 per failure to
up to $1,000, or up to 1 year of imprisonment, or both and the cost of prosecution. Observations
from the 28 visits showed:
     •   None of seven preparers exercised due
         diligence when determining whether the                      Preparers must be diligent in
         auditors were eligible to receive the Earned           determining taxpayer eligibility for the
         Income Tax Credit. All seven prepared the              Earned Income Tax Credit, sign the tax
         required Paid Preparer’s Earned Income                    return, furnish their identification
                                                                   number on the tax return, and not
         Credit Checklist (Form 8867) but did not                improperly or recklessly disclose tax
         ask any or all of the probing questions on                        return information.
         the Form. One preparer complained that
         the tax return preparation software prompts
         slowed down the preparation process.
     • 2 (7 percent) of the 28 preparers did not furnish their identification numbers on the
       completed tax returns.
     • 3 (11 percent) of the 28 preparers did not adequately protect auditors’ tax information or
       other clients’ personal identification tax information. For example, preparers repeated
       auditors’ Social Security Numbers aloud and disclosed the auditors’ tax return information
       on the computer screen and the desk when others were present in the office. In two
       instances, preparers made visible other clients’ tax information to the auditors.
     • 5 (18 percent) of the 28 preparers did not sign the tax returns with a computer or original
       signature.



12
 See Appendix IV for a list of Internal Revenue Code penalties applicable to paid preparers.
13
 Paid preparers must provide their Social Security Number or Practitioner Tax Identification Number and/or
Employer Identification Number on tax returns.
                                                                                                       Page 10
                          Most Tax Returns Prepared by a Limited Sample of
                          Unenrolled Preparers Contained Significant Errors



Tax return preparation fees varied significantly for the same situation
Tax return preparation can be costly. Auditors visited 12 commercial tax return preparation
chains and were charged approximately $2,800, an average of $234 per tax return. The
16 independently owned offices charged approximately $2,100, an average of $132 per tax
return. Figure 4 presents the tax return preparation fees the auditors were charged to prepare the
returns.
                   Figure 4: Tax Return Preparation Fees by Scenario

             Scenario #                               Fees Charged

            Scenario #1        $74*      $150*       $123         $200         $230      $271*
            Scenario #2        $72*      $107*      $114*        $161*         $248
            Scenario #3        $60*       $93        $169         $200         $200      $252*
            Scenario #4        $106       $144      $180*         $211        $238*
            Scenario #5        $100       $130       $150         $155         $371      $402
            Source: Anonymous visits performed by our auditors. Figures designated by
            an * = Correct tax returns. Figures underscored = Tax returns considered to have been
            prepared willfully or recklessly.

Improved Data Are Needed to Enable the Internal Revenue Service to
Control and Monitor Paid Preparers
In most States, anyone can be a paid preparer regardless of education, training, or licensure.
In some States, hairdressers and home inspectors must be licensed before they perform their
services, but there is no such requirement for tax return preparers. In Fiscal Year 2007, the
IRS, including the National Taxpayer Advocate and the Director, Office of Professional
Responsibility, participated in a Return Preparer Summit, which was claimed to be a first
step toward creating an agency-wide preparer strategy. The Summit’s goal was to have an
organized, agency-wide strategy that would assist in making the most of IRS resources by
focusing compliance and outreach efforts with tax professionals where it is most needed. As
of April 25, 2008, the strategy was still awaiting approval from the Department of the
Treasury before being finalized.
In 2004, the National Taxpayer Advocate’s Annual Report to Congress listed Oversight of
Unenrolled Return Preparers as one of the most serious problems encountered by taxpayers.
The National Taxpayer Advocate further cautioned the IRS that if it did not police the tax
return preparation profession, taxpayers would be more likely to have bad experiences with
unscrupulous or incompetent preparers that without question would taint their impressions of
the system. The National Taxpayer Advocate recommended a Federal Government program
to regulate unenrolled tax preparers.
                                                                                                    Page 11
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



The IRS responded to the recommendation with concerns about the cost of such a program.
Instead of developing a Federal Government program, the IRS developed an agency-wide
strategy, which included joint visitations and reviews of the Return Preparer Program activities,
quarterly meetings, and development of a Preparer/Practitioner Database. The visitations
provided some information, and the database never moved beyond the concept stage.

The IRS has insufficient information on paid preparers
Although paid preparers file the majority of income tax returns,14 the IRS has limited information
on them and insufficient means by which to track or monitor them. Preparers identify
                                                 themselves on income tax returns they prepare
     Preparers use three different types of      by entering their Social Security Number,
  numbers to identify themselves on income       Employer Identification Number, or Practitioner
            tax returns they prepare:            Tax Identification Number. A Practitioner Tax
            ● Social Security Numbers            Identification Number is used by a preparer who
       ● Employer Identification Numbers         does not want to disclose his or her Social
    ● Practitioner Tax Identification Numbers    Security Number on tax returns he or she
                                                 prepares. It is a nine-character alpha/numeric
                                                 with the first character being “P” followed by
eight numbers. An Employer Identification Number is a unique nine-digit number used to
identify a taxpayer’s business account on IRS records.
Figure 5 provides an excerpt of paid preparer identifier requirements on the U.S. Individual
Income Tax Return (Form 1040).
                                Figure 5: Excerpt From Form 1040,
                               Paid Preparer Identifier Requirements




 Source: IRS.gov, Form 1040.

The IRS does not have one list or database that collects information on preparers. For example,
it does not have a list or database that shows the preparer’s name, associated identifying
numbers, or whether the preparer is a practitioner or unenrolled preparer and/or an Electronic
Return Originator.15 Preparers could be self-employed and use their personal Employer

14
   See Appendix III for the demographic profile of taxpayers who used a paid preparer during the 2008 Filing
Season.
15
   Electronic Return Originators originate the electronic submission of income tax returns to the IRS. An Electronic
Return Originator electronically submits income tax returns that are either prepared by the Electronic Return
Originator’s firm or collected from a taxpayer.
                                                                                                           Page 12
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



Identification Number or employed and preparing tax returns as part of a tax preparation
company. In the latter instance, the preparer could use the Employer Identification Number
associated with the tax preparation company and his or her personal Social Security Number or
Practitioner Tax Identification Number.
According to the Government Accountability Office, many preparers do not sign tax returns with
the required identifying number or numbers.16 This occurred during two of our visits. Because
processing tax returns is a priority for the IRS, it accepts tax returns even if preparers’
information is not provided or is inaccurate on tax returns. For example, limited tests showed
that more than 9,000 preparers used their Employer Identification Numbers as Social Security
Numbers to prepare more than 500,000 tax returns filed in Calendar Year 2008, thus creating
additional challenges. These variables make it difficult not only to identify the number of
preparers but also to identify all the tax returns they prepared.
The IRS maintains a database17 of individuals authorized to represent taxpayers before the IRS.
This database contains the name, complete address, and telephone number(s) of the individual
and an assigned Centralized Authorization File number,18 if one is assigned. In Fiscal Year 2003,
the IRS attempted to use this database to determine the paid preparer population. The IRS
resorted to using the names of preparers from the database to match with third-party data
external to the IRS to identify Social Security Numbers to conduct matches against its internal
databases. As a result, the IRS had to qualify the use of the data. Currently, when reporting the
population of unregulated preparers, the IRS uses ranges.
The IRS does maintain another database of
preparers who have applied and been approved         During this audit, auditors were unable
to be an enrolled agent. The applicants are             to identify the total population of
requested to provide their Practitioner Tax                 unenrolled paid preparers.
Identification Number, Social Security
Number, or Centralized Authorization File
number to be included in the database. During this audit, we faced challenges in using this
database to match the preparers’ identifying numbers to IRS internal databases containing tax
return data because preparers are required to use only one of the three identifying numbers when
applying to become an enrolled agent–and may use any of the three. Due to the use of multiple



16
   Fiscal Year 2009 Budget Request and Interim Performance Results of IRS’s 2008 Tax Filing Season
(GAO-08-567, dated March 2008).
17
   This database contains information regarding the type(s) of authorization that taxpayers have given
representatives for their various tax accounts.
18
   This number is assigned to a practitioner when a Power of Attorney and Declaration of Representative
(Form 2848) or Tax Information Authorization (Form 8821) is submitted to the IRS. The number is maintained in a
file that contains information regarding the type(s) of authorization that taxpayers have given representatives to
represent them in matters before the IRS for the various tax years within their accounts.
                                                                                                         Page 13
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



identifying numbers in IRS databases, we were unable to identify the total population of
unenrolled paid preparers.
In addition, in a March 2006 audit,19 the Treasury Inspector General for Tax Administration
recommended that the IRS coordinate and develop a method to uniquely identify taxpayer
representatives in the Centralized Authorization File to track paid preparers’ noncompliance with
their own tax obligations because the IRS could not systematically identify whether a delinquent
taxpayer was also a licensed tax practitioner. The IRS agreed to the recommendation.
An integral component of any management information system is application controls to help
ensure the validity, completeness, and accuracy of data. Moreover, the application controls will
enable management to effectively monitor performance measures and could be useful to identify
preparers for enforcement actions.
In March 2008, the Government Accountability Office also recommended that the IRS develop a
plan to require a single identification number for paid preparers to track their performance.20 It
reminded the IRS of past documented problems with paid preparers filing accurate returns and
recommended that the IRS conduct research to determine the extent of the problems. The IRS
recently responded that it recognizes the operational enhancements a unique number would
provide. However, it is considering other solutions and does not believe that requiring a unique
number is the optimal solution.

Identifying the number of preparers will play a key role in IRS strategies to
improve voluntary compliance, reduce taxpayer burden, and address the tax gap21
Because approximately 83 million tax returns processed by the IRS in Calendar Year 2007 were
prepared by paid preparers, tax returns preparers have a significant effect on taxpayer
compliance. The IRS acknowledges that it does not know how many paid preparers exist and
cannot determine the full extent of noncompliance and incompetence within the tax practitioner
community. This hinders the IRS’ efforts to expand its outreach and education initiatives and to
identify potentially problematic preparers.
Pursuing abusive preparers is part of the IRS’ strategy to reduce the tax gap, which researchers
estimate to be $290 billion based on 2001 data.22 In the February 2007 testimony before
Congress, the IRS Commissioner stated that 68 percent of the tax gap is attributed to


19
   The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against Incompetent and
Disreputable Tax Practitioners (Reference Number 2006-10-066, dated March 2006).
20
   Fiscal Year 2009 Budget Request and Interim Performance Results of IRS’s 2008 Tax Filing Season
(GAO-08-567, dated March 2008).
21
   The IRS defines the gross tax gap as the difference between the estimated amount taxpayers owe and the amount
they pay voluntarily and in a timely manner for a tax year.
22
   IRS, U.S. Department of the Treasury, Reducing the Federal Tax Gap: A Report on Improving Voluntary
Compliance (Washington, D.C.: August 2, 2007).
                                                                                                        Page 14
                           Most Tax Returns Prepared by a Limited Sample of
                           Unenrolled Preparers Contained Significant Errors



underreported taxes for individuals. 23 Eleven (65 percent) of the 17 incorrect tax returns
prepared for our auditors fell into this category.
Taxpayers are ultimately responsible for the information reported on their tax returns. However,
approximately 83 million taxpayers rely on preparers to prepare correct returns. In Fiscal
Year 2007, legislation was introduced in Congress to regulate paid preparers.24 The legislation
includes requiring the IRS to license paid preparers who are not under a regulatory body and
ensure that they obtain continuing education to maintain their licenses.
A unique identification number would enable the IRS to better use its current databases to
identify and evaluate preparers’ compliance. In addition, these actions will assist the IRS in
making the most use of its resources. Being able to identify all preparers would allow the IRS to
better pursue abusive or incompetent tax preparers in its stepped-up campaign against tax fraud
and other forms of noncompliance.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
develop and require a single identification number to control and monitor all paid preparers.
        Management’s Response: IRS management agreed to study this issue. The
        Director, Examination, Small Business/Self-Employed Division, will commission a
        cross-functional team to study the feasibility and methodology associated with requiring
        a single identification number to control and monitor all paid preparers. Management
        will evaluate the results of the study to consider if it is feasible to implement.




23
   Oral Testimony of Commissioner of Internal Revenue Mark W. Everson Before the Senate Budget Committee on
the FY 2008 IRS Budget and the Tax Gap. Washington, D.C., February 14, 2007.
24
   S. 1219, Taxpayer Protection and Assistance Act of 2007, 110th Congress, 1st Session (2007).




                                                                                                    Page 15
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether taxpayers receive accurate preparation of their
income tax returns when using unenrolled paid preparers. To accomplish our objective, we:
I.      Determined what oversight the IRS provides to paid preparers and what data the Office of
        Professional Responsibility maintains on paid preparers. We also contacted the Office of
        Professional Responsibility and discussed oversight and strategies.
II.     Determined whether the IRS had an effective and efficient process to identify the number
        of unenrolled paid preparers who prepare and file individual tax returns by attempting to
        match the preparer identifying numbers from the IRS Enrolled Practitioner Program
        System to other IRS internal databases with tax return data.
III.    Determined whether unenrolled paid preparers accurately prepared tax returns.
        A. Judgmentally selected 30 unenrolled preparers in a metropolitan city based on
           whether they were a large commercial chain or a small, independently owned tax
           preparation service. The IRS does not have reliable data to identify the number of
           unenrolled preparers. Therefore, we could not determine the total population of
           unenrolled preparers and could not select a statistical sample. We selected the
           30 locations (40 percent large commercial chains and 60 percent small, independently
           owned tax preparation services) by using the Internet, using the telephone book, and
           driving in and around the metropolitan city.
        B. Using 5 scenarios, anonymously visited 30 selected unenrolled paid preparers in a
           selected city to have tax returns prepared.
        C. Calculated the accuracy rate of the tax returns prepared by the 281 selected unenrolled
           preparers, including trending and quantifying the individual errors.
IV.     Identified the demographics of taxpayers who used paid preparers to prepare tax returns
        during Calendar Year 2008 through analyses of taxpayer account data on the Individual
        Return Transaction File.2




1
  We selected 30 preparers. However, two were eliminated because they were practitioners subject to a regulatory
body.
2
  The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
                                                                                                          Page 16
                            Most Tax Returns Prepared by a Limited Sample of
                            Unenrolled Preparers Contained Significant Errors



        A. Using the Individual Return Transaction File, identified taxpayers who used a
           preparer to file a tax return and analyzed the data for taxpayer demographics. We
           selected taxpayer accounts and verified the accuracy of the Individual Return
           Transaction File tax accounts by researching the IRS Integrated Data Retrieval
           System.
        B. Reviewed fields required for the U.S. Individual Income Tax Return (Form 1040)
           review. We reviewed a sample at the beginning of the year and performed run-to-run
           balancing3 by comparing record counts in all logs showing that data were extracted
           from the IRS files to the location of data stored at the Treasury Inspector General for
           Tax Administration Data Center Warehouse. We reviewed fields in each cycle and
           checked Log Analysis and Reporting Systems on the IRS mainframe for reruns.
        C. Validated the data extracted to fill our electronic data processing requests. We
           conducted run-to-run balancing and ensured that the entire file was used with no gaps
           in the access or extraction of the data.
V.      Determined what activities are currently underway to provide oversight for all paid
        preparers and researched the status of the Taxpayer Protection and Assistance Act of
        20074 and/or other legislation on the regulation of paid preparers.




3
  Run-to-run balancing is an audit control system. It consists of programs, procedures, and files whose primary
function is to account for the number of records passed between applications programs.
4
  S. 1219, Taxpayer Protection and Assistance Act of 2007, 110th Congress, 1st Session (2007).
                                                                                                           Page 17
                       Most Tax Returns Prepared by a Limited Sample of
                       Unenrolled Preparers Contained Significant Errors



                                                                             Appendix II

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Examination Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 18
                             Most Tax Returns Prepared by a Limited Sample of
                             Unenrolled Preparers Contained Significant Errors



                                                                                             Appendix III

    Comparison of Taxpayers Who Used a Preparer to
       Taxpayers Who Did Not Use a Preparer for
                  Calendar Year 2008                                        1




                                           All Taxpayers                   All Taxpayers
                                               Using                         Not Using
                                             Preparers       Percentage      Preparers       Percentage
                                              Age Segmentation
        Under 25 Years                           8,634,418       16%            10,688,724      25%
        25-34 Years                             11,669,759       21%             8,035,892      19%
        35-44 Years                             11,046,375       20%             7,398,658      18%
        45-54 Years                              9,797,824       18%             6,747,030      16%
        55-64 Years                              6,652,914       12%             4,559,716      11%
        65 Years or Older                        7,134,947       13%             4,491,439      11%
        Totals                                  54,936,237      100%            41,921,459     100%
                                          Filing Status Segmentation
        Single                                  21,321,541       39%            22,949,511      55%
        Head of Household                       12,563,125       23%             5,232,246      12%
        Married Filing Jointly                  20,268,808       37%            13,061,323      31%
        Married Filing Separately                  747,489        1%              659,031        2%
        Widow(er) With Dependent
        Child                                       35,274       <1%               19,348       < 1%
        Totals                                  54,936,237      100%            41,921,459     100%
                                             Income Segmentation
                    2
        No Income                                  756,243        1%             1,721,552       4%
        $1 to $4,999                             3,944,441        7%             4,486,945      11%
        $5,000 to $14,999                       10,379,640       19%             7,288,203      17%
        $15,000 to $24,999                       9,716,300       18%             6,053,506      14%


1
 Source of information in these tables is based on our analysis of IRS data files.
2
 These data represent taxpayers with no income because of business and investment losses and nontaxable sources
of income.
                                                                                                       Page 19
                     Most Tax Returns Prepared by a Limited Sample of
                     Unenrolled Preparers Contained Significant Errors




                               All Taxpayers                 All Taxpayers
                                   Using                       Not Using
                                 Preparers      Percentage     Preparers     Percentage
$25,000 to $39,783                  9,876,984      18%           7,012,268      17%
$39,784 to $54,999                  6,350,841      12%           4,705,352      11%
$55,000 to $74,999                  5,488,347      10%           4,026,246      10%
$75,000 to $99,999                  4,067,969       7%           3,220,752       8%
$100,000 and over                   4,355,472       8%           3,406,635       8%
Totals                             54,936,237     100%          41,921,459     100%




                                                                                      Page 20
                      Most Tax Returns Prepared by a Limited Sample of
                      Unenrolled Preparers Contained Significant Errors



                                                                                            Appendix IV

        Internal Revenue Code Preparer Penalties

 Code
 Section      Description                                                Penalty
 6694(a)      Understatement of taxpayer’s liability due to an           Greater of $1,000 per tax
              unreasonable position                                      return or 50 percent of the
                                                                         income derived
 6694(b)      Understatement of taxpayer’s liability due to willful or   Greater of $5,000 per tax
              reckless conduct                                           return or 50 percent of the
                                                                         income derived
 6695(a)      Failure to provide copy of return to taxpayer              $50 per failure up to a
                                                                         maximum of $25,000
 6695(b)      Failure to sign return                                     $50 per failure up to a
                                                                         maximum of $25,000
 6695(c)      Failure to furnish identifying number                      $50 per failure up to a
                                                                         maximum of $25,000
 6695(d)      Failure to retain a copy or list of returns filed          $50 per failure up to a
                                                                         maximum of $25,000
 6695(e)      Failure of employers to file correct information on each   $50 per failure up to a
              tax preparer employed                                      maximum of $25,000
 6695(f)      Negotiation of taxpayer’s refund check                     $500 per check
 6695(g)      Failure to be diligent in determining Earned Income Tax    $100 per failure
              Credit eligibility
 6701         Aiding and abetting understatement of tax liability        $1,000 per person per period

 6713         Improper disclosure or use of return information           $250 per disclosure or use
                                                                         up to a maximum of $10,000

 7206         Willful preparation of or making a false statement         Up to $100,000, or up to
              regarding a false or fraudulent return or other            3 years’ imprisonment, or
              document                                                   both, together with the costs
                                                                         of prosecution
 7207         Knowingly providing fraudulent returns or other            Up to $10,000, or up to
              documents to the IRS                                       1 year of imprisonment, or
                                                                         both
 7216         Knowingly or recklessly disclosing or using return         Up to $1,000, or up to
              information                                                1 year of imprisonment, or
                                                                         both, together with the costs
                                                                         of prosecution
 7407         Authority to enjoin income tax preparers                   Civil action may be taken;
                                                                         preparer could lose the right
                                                                         to prepare tax returns
Source: Internal Revenue Code.

                                                                                                         Page 21
                             Most Tax Returns Prepared by a Limited Sample of
                             Unenrolled Preparers Contained Significant Errors



                                                                                        Appendix V

                         Explanations of Tax Law Topics


                           Topic                                       Explanations

                                                     A credit for certain individuals who get less than
                                                     the full amount allowed for the Child Tax Credit.
     Additional Child Tax Credit
                                                     The Additional Child Tax Credit may result in a
                                                     refund even if no tax is owed.
                                                     Income from operating a small business
     Business Income                                 reported on a Profit or Loss from Business
                                                     (Schedule C) that accompanies the Form 1040.1
                                                     Expenses from operating a small business
     Business Expenses                               reported on a Schedule C that accompanies the
                                                     Form 1040.
                                                     Purchased assets sold or traded and reported
     Capital Gains                                   on a Capital Gains and Losses (Schedule D)
                                                     that accompanies the Form 1040.
                                                     A percentage of the amount of work-related child
     Child and Dependent Care Credit                 and dependent care expenses paid to a
                                                     childcare provider.
                                                     A credit that reduces the Federal income tax
     Child Tax Credit                                owed up to $1,000 for each qualifying child
                                                     under age 17.
                                                     A deduction from income for each qualifying
     Dependency Exemption                            person such as a son, daughter, or parent
                                                     claimed as a dependent.
                                                     A refundable credit for lower income workers
     Earned Income Tax Credit                        based on earned income and other requirements
                                                     such as filing status and qualifying dependents.
                                                     Tax credits such as Hope and Lifetime that help
     Education Credits                               offset the costs of higher education by reducing
                                                     the amount of income tax.
                                                     A requirement that indicates a taxpayer’s marital
     Filing Status
                                                     or family situation for filing a Form 1040.



1
    U.S. Individual Income Tax Return (Form 1040).
                                                                                                 Page 22
                               Most Tax Returns Prepared by a Limited Sample of
                               Unenrolled Preparers Contained Significant Errors




                            Topic                                              Explanations

                                                             A payment to an individual usually of money for
     Income from Wages                                       labor or services performed. It is reported on the
                                                             Form 1040.
                                                             Distributions from a trust or custodial account set
                                                             up to benefit an individual and his or her
     Individual Retirement Account Distributions and
                                                             beneficiaries. Withdrawals from the account
     Penalty
                                                             before age 59½ are considered taxable income
                                                             and could be subject to a 10 percent penalty.
                                                             Earnings on investments such as savings
     Interest Income                                         accounts, certificates of deposit, and
                                                             seller-financed mortgages.
                                                             Deductions from income for certain expenses
                                                             such as mortgage interest and charitable
     Itemized Deductions
                                                             contributions listed on an Itemized Deductions
                                                             (Schedule A) that accompanies a Form 1040.
                                                             A credit for contributions made to an
                      2                                      employer-sponsored retirement plan or an
     Saver’s Credit
                                                             Individual Retirement Account that is based on
                                                             an individual’s adjusted gross income.
                                                             A tax on net earnings of $400 or more from
                                                             self-employment shown on a Self-Employment
                                                             Tax (Schedule SE) that accompanies a
     Self-Employment Tax and Deduction
                                                             Form 1040. The deduction is one-half of total
                                                             self-employment tax and is an adjustment to
                                                             gross income.
    Source: Explanations for tax law topics are from IRS publications.




2
    Formerly the Retirement Savings Contributions Credit.
                                                                                                         Page 23
                     Most Tax Returns Prepared by a Limited Sample of
                     Unenrolled Preparers Contained Significant Errors



                                                                            Appendix VI

                            Accuracy Results of
                            28 Anonymous Visits

                                                                Computed
                   Accurately                                    Refund/
Visit   Scenario    Prepared    Preparation   Correct Refund/    Balance     Effect on Tax
 #         #       Tax Return       Fee       Balance Due (-)    Due (-)    Administration
    2      1           No         $200.00        $2,218.00      $2,561.00      -$343.00
    1      1          Yes         $271.00        $2,218.00      $2,218.00         $0.00
  19       1           No         $230.00        $2,218.00      $2,093.00       $125.00
  16       1          Yes         $74.00         $2,218.00      $2,218.00         $0.00
  23       1          Yes         $150.00        $2,218.00      $2,218.00         $0.00
  14       1           No         $123.00        $2,218.00      $2,093.00       $125.00

  11       2           No        $248.00          $98.00        $6,061.00    -$5,963.00
   3       2          Yes        $114.00          $98.00         $98.00           $0.00
  10       2          Yes        $107.00          $98.00         $98.00           $0.00
  24       2          Yes        $161.00          $98.00         $98.00           $0.00
  15       2          Yes        $72.00           $98.00         $98.00           $0.00

   4       3           No        $200.00         ($543.00)      $3,617.00    -$4,160.00
  18       3          Yes        $252.00         ($543.00)      ($543.00)         $0.00
  21       3          No         $200.00         ($543.00)      $4,675.00    -$5,218.00
  17       3          No         $93.00          ($543.00)      $1,511.00    -$2,054.00
   5       3          No         $169.00         ($543.00)       $369.00       -$912.00
  26       3          Yes         $60.00         ($543.00)      ($543.00)         $0.00

  28       4          No         $211.00         $132.00         $170.00        -$38.00
   7       4          No         $106.00         $132.00         $230.00        -$98.00
   8       4          Yes        $238.00         $132.00         $132.00          $0.00
   6       4          No         $144.00         $132.00         $296.00       -$164.00
  25       4          Yes        $180.00         $132.00         $132.00          $0.00




                                                                                    Page 24
                          Most Tax Returns Prepared by a Limited Sample of
                          Unenrolled Preparers Contained Significant Errors



                                                                            Computed
                       Accurately                                             Refund/
  Visit Scenario        Prepared       Preparation Correct Refund/            Balance        Effect on Tax
    #         #        Tax Return          Fee          Balance Due (-)       Due (-)       Administration
     12       5            No            $371.00           ($1,771.00)      ($2,726.00)           $955.00
     22       5            No            $402.00           ($1,771.00)       ($747.00)        -$1,024.00
      9       5            No            $150.00           ($1,771.00)      ($1,119.00)          -$652.00
     27       5            No            $130.00           ($1,771.00)      ($2,418.00)           $647.00
     20       5            No            $100.00           ($1,771.00)      ($2,814.00)        $1,043.00
     13       5            No            $155.00           ($1,771.00)      ($6,674.00)        $4,903.00
     28                       11                                                                -$12,828
Source: Tax returns prepared for our auditors by preparers. Those underscored = the tax returns we considered
prepared willfully or recklessly.




                                                                                                     Page 25
        Most Tax Returns Prepared by a Limited Sample of
        Unenrolled Preparers Contained Significant Errors



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 26
Most Tax Returns Prepared by a Limited Sample of
Unenrolled Preparers Contained Significant Errors




                                                    Page 27
